    OFFICE OF INSPECTOR GENERAL




                                            System Review Report

    March 27,   2014

    Ms. Kathy A. Buller, Inspector General
    Peace Corps Office of Inspector General
    1111 2oth Street, NW
    Washington, DC 20526

    We have reviewed the system of quality control for the audit organization of the Peace Corps
    Office of Inspector General (OIG) in effect for the year ended September 30, 2013. A system of
    quality control encompasses the Peace Corps OIG's organizational structure and the policies
    adopted and procedures established to provide it with reasonable assurance of conforming with
    Government Auditing Standards. The elements of quality control are described in Government
    Auditing Standards. The Peace Corps OIG is responsible for designing a system of quality
    control and complying with it to provide the Peace Corps OIG with reasonable assurance of
    performing and reporting in conformity with applicable professional standards in all material
    respects. Our responsibility is to express an opinion on the design of the system of quality control
    and the Peace Corps OIG's compliance therewith based on our review.

     Our review was conducted in accordance with Government Auditing Standards and guidelines
     established by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). During
     our review, we interviewed Peace Corps OIG personnel and obtained an understanding of the
     nature of the Peace Corps OIG audit organization, and the design of the Peace Corps OIG's
     system of quality control sufficient to assess the risks implicit in its audit function. Based on our
     assessments, we selected engagements and administrative files to test for conformity with
     professional standards and compliance with the Peace Corps OIG's system of quality control. The
     engagements selected represented a reasonable cross-section of the Peace Corps OIG's audit
     organization, with emphasis on higher-risk engagements. Prior to concluding the review, we
     reassessed the adequacy of the scope of the peer review procedures and met with Peace Corps
     OIG management to discuss the results of our review. We believe that the procedures we
     performed provide a reasonable basis for our opinion.

     In performing our review, we obtained an understanding of the system of quality control for the
     Peace Corps OIG's audit organization. In addition, we tested compliance with the Peace Corps
     OIG's quality control policies and procedures to the extent we considered appropriate. These
     tests covered the application of the Peace Corps OIG's policies and procedures on selected
     engagements. Our review was based on selected tests; therefore, it would not necessarily detect
     all weaknesses in the system of quality control or all instances of noncompliance with it.

     There are inherent limitations in the effectiveness of any system of quality control, and therefore
     noncompliance with the system of quality control may occur and not be detected. Projection of
     any evaluation of a system of quality control to future periods is subject to the risk that the
     system of quality control may become inadequate because of changes in conditions, or because
     the degree of compliance with the policies or procedures may deteriorate.




1100 Pennsylvania Ave., N.W., Rm. 419, Washington, D.C. 20506 P 202.606.8350   F   202.606.8329 www.neh.gov/about/OIG
                                               OIG Hotline: (877) 786-7598
    The Enclosure to this report identifies the offices of the Peace Corps OIG that we visited and the
    engagements that we reviewed.

    In our opinion, the system of quality control for the audit organization of the Peace Corps OIG in
    effect for the year ended September 30, 2013, has been suitably designed and complied with to
    provide the Peace Corps OIG with reasonable assurance of performing and reporting in
    conformity with applicable professional standards in all material respects. Federal audit
    organizations can receive a rating of pass, pass with deficiencies, or fail. The Peace Corps OIG
    has received a peer review rating of pass. As is customary, we have issued a separate letter dated
    March 27, 2014 that sets forth findings that were not considered to be of sufficient significance to
    affect our opinion expressed in this report.

    In addition to reviewing its system of quality control to ensure adherence with Government
    Auditing Standards, we applied certain limited procedures in accordance with guidance
    established by the CIGIE related to the Peace Corps OIG's monitoring of engagements performed
    by Independent Public Accountants (IPA) under contract where the IPA served as the principal
    auditor. It should be noted that monitoring of engagements performed by IPAs is not an audit
    and therefore is not subject to the requirements of Government Auditing Standards. The
    purpose of our limited procedures was to determine whether the Peace Corps OIG had controls
    to ensure IPAs performed contracted work in accordance with professional standards. However,
    our objective was not to express an opinion and accordingly, we do not express an opinion, on
    the Peace Corps OIG's monitoring of work performed by IPAs.



   ~~~
     Laura Davis, Inspector General

     Enclosure




1100 Pennsylvania Ave., N.W., Rm. 419, Washington, D.C. 20506 P 202.606.8350   F   202.606.8329 www.neh.gov/about/OIG
                                               OIG Hotline: (877) 786-7598
                                                            2
                                                                                                  Enclosure
                                      SCOPE AND METHODOLOGY


    Scope and Methodology

    We tested compliance with the Peace Corps OIG audit organization's system of quality control to
    the extent we considered appropriate. These tests included a review of 3 of 7 audit and
    attestation reports issued during the period October 1, 2012, through September 30, 2013, and
    semiannual reporting for the same period.

    In addition, we reviewed the Peace Corps OIG's monitoring of engagements performed by IPAs
    where the IPA served as the principal auditor during the period October 1, 2012, through
    September 30, 2013. During the period, the Peace Corps OIG utilized contractors for the audit of
    the agency's Fiscal Year 2012 financial statements and the Federal Information Security
    Management Act (FISMA) work. Both of these engagements were to be performed in accordance
    with Government Auditing Standards.

    When performing the Peer Review, we visited the Washington, DC office of the Peace Corps OIG.


     Reviewed Engagements Performed by the Peace Corps OIG

     Report No.                Report Date               Report Title
     IG-13-06-A                September 2013            Peace Corps/Zambia

     IG-13-03-A                March 2013                Peace Corps/South Africa

     IG-13-01-A                October 2012              The Peace Corps' Management
                                                         of the soth Anniversary Program



     Reviewed Monitoring Files of the Peace Corps OIG for Contracted Engagements

     Report No.                Report Date               Report Title
     N/A                       November 2012             Audit of Peace Corps' Fiscal Year 2012 Financial
                                                         Statements




1100 Pennsylvania Ave., N.W., Rm. 419, Washington, D.C. 20506 P 202.606.8350   F   202.606.8329 www.neh.gov/about/OJG
                                               OIG Hotline: (877) 786-7598
                                                            3
                                                                       Office               Hotline

  Office of Inspector General                                          202.692.2900
                                                                       peacecorps.gov/OIG
                                                                       OIG Reports
                                                                                            202.692.2915 ‫ ׀‬800.233.5874
                                                                                            Online Reporting Tool
                                                                                            OIG@peacecorps.gov




March 25, 2014

Ms. Laura Davis
Inspector General
National Endowment for the Humanities
1100 Pennsylvania Avenue, NW
Washington, D.C. 20506

Dear Ms. Davis:

Thank you for the opportunity to comment on the external quality control review of the Peace
Corps Office of Inspector General’s audit function. We agree with the results and we are pleased
that our system of quality control in effect for the period ended September 30, 2013, conforms to
the quality control standards established by the Comptroller General of the United States for a
federal audit organization.

Regarding your letter of comment, we are committed to looking for ways to improve our system
of quality control to ensure our audit function continues to meet or exceed the standards
established by the Comptroller General. In your letter of comment you provided four findings,
which were not considered to be of sufficient significance to affect the opinion expressed in the
system review report. We have provided a separate response to these findings including actions
taken or planned, intended to address the findings, as well as estimated completion dates for
future actions.

We appreciate the efforts of your staff in conducting this review in a timely and professional
manner.



Sincerely,




Kathy A. Buller
Inspector General
